   United States Department of Agriculture
   Office of Inspector General




Audit of the Office of the Chief Information
Officer's FYs 2010 and 2011 Funding Received
for Security Enhancements




                                             Audit Report 88401-0001-12
                                             August 2012
                           United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250


DATE:          August 2, 2012

AUDIT
NUMBER:        88401-0001-12

TO:            Cheryl L. Cook
               Acting, Chief Information Officer
               Office of the Chief Information Officer

ATTN:          Denice Lotson
               Acting Agency Audit Liaison


FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Audit of the Office of the Chief Information Officer’s FYs 2010 and 2011
               Funding Received for Security Enhancements


This report presents the results of the subject review. Your written response to the official draft
is included at the end of this report. Excerpts of your June 21, 2012, response and the Office of
the Inspector General’s (OIG) position are incorporated into the applicable sections of the report.

We accept management decision for Recommendation 1. Based on your response, we were
unable to reach management decision on Recommendations 2, 3, and 4. Management decision
for these recommendations can be reached once you have provided the additional information
outlined in the OIG Position section under each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents


Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Section 1: Effectively Plan, Prioritize, and Manage Projects .............................5
   Finding 1: OCIO Needs to Effectively Plan, Prioritize, and Manage its
   Projects ..................................................................................................................5
         Recommendation 1 ......................................................................................12
         Recommendation 2 ......................................................................................13
         Recommendation 3 ......................................................................................13
   While OIG concurs with OCIO’s proposed actions, in order to reach
   management decision, OCIO needs to formalize this requirement in a policy
   and procedure and provide estimated release dates. ......................................14
         Recommendation 4 ......................................................................................14
Scope and Methodology.........................................................................................15
Abbreviations .........................................................................................................16
Exhibit A: OCIO Projects Not in Budgetary Request to Congress ..................17
Agency’s Response .................................................................................................19
Office of the Chief Information Officer’s FYs 2010 and 2011
Funding Received for Security Enhancements

Executive Summary

In fiscal year (FY) 2010, Congress provided the Office of the Chief Information Officer (OCIO)
a $44 million increase to its baseline appropriations from approximately $18 million to
$62 million for security enhancements within the Department of Agriculture (USDA). In
FY 2011, OCIO received $22 million in additional security enhancement funding for a total
appropriation of $40 million. These funds were intended to help OCIO improve USDA’s
information technology (IT) security posture.1 To accomplish this, OCIO selected 16 projects
and, as of April 2, 2012, had expended $63.4 million on these projects. We initiated this audit to
determine how OCIO utilized funding in FYs 2010 and 2011, primarily focusing on the increase
for security enhancements in OCIO’s annual appropriation request.

Over the last few years, OCIO has taken action towards improving security efforts at the
Department, such as establishing the Agriculture Security Operations Center (ASOC) as an
enterprise operational presence for OCIO’s security activities. Prior to this, the only security
organization at the Department-level was primarily focused on policy and compliance tracking.
ASOC now has Federal employees with the requisite skills that provide enterprise services in
security engineering, monitoring and analysis, incident handling, and security integration.
Within ASOC, the Department has deployed security management tools to monitor and protect
network traffic.

While we acknowledge that OCIO has made progress in addressing USDA’s security posture,
there is further need for improvement. Since 2009, we have noted that OCIO should prioritize its
efforts to mitigate IT security weaknesses and accomplish a manageable number of the highest
priority projects before proceeding to the next set of priorities.2 We continue to find that OCIO’s
efforts should have been strategically planned, prioritized, and managed in order to be more
effective. First, we found that several of OCIO’s projects did not meet the purposes outlined in
the Congressional request for funding or address the Department’s most critical IT security
concerns.3 For example, OCIO funded an intern program for a total of $2 million which, while
funded as a security enhancement project, only resulted in one intern being hired full-time for
ASOC. In other instances, we found that OCIO exceeded proposed budgets for projects, or did
not allot sufficient funding to key security areas. Second, we found that some projects were not
completely implemented. For example, we found that OCIO had only assigned two individuals
to analyze 13.3 terabytes of security alert data per day, resulting in the analysis of approximately

1
  Security posture describes how well an organization has minimized security risks. It consists of technical and non-
technical policies, procedures, and controls that are the result of the strategy an organization undertakes to minimize
risks.
2
  U.S. Department of Agriculture, Office of the Chief Information Officer, Federal Information Security
Management Act Report, FYs 2009-2011, 50501-0015-FM, (October 2009), 50501-0002-IT, (November 2010), and
50501-0002-12 (November 2011).
3
  2010 USDA Budget Explanatory Notes for Committee on Appropriations, Office of the Chief Information Officer,
(April 2009).

                                                                           AUDIT REPORT 88401-0001-12                1
10 security incidents a week.4 The actual number of weekly incidents is unknown and could
vary each week. OCIO stated that regardless of the resources available, the amount of
information gathered is so massive it would require a tremendous workforce to evaluate all
incidents identified by the security sensor array.5 Lastly, other projects were not sufficiently
coordinated, which included projects with duplicate objectives. For example, OCIO spent
$235,000 on a project that duplicated another project’s objectives, and was subsequently
cancelled. This occurred because OCIO did not adequately develop oversight mechanisms and
internal controls to plan projects, coordinate and communicate between projects, or determine
how it would effectively utilize its resources. Because these projects were not effectively
planned, coordinated, or managed, the Department’s information systems are still at risk.

Recommendation Summary
OCIO should document the prioritization of projects Departmentwide, develop detailed internal
control procedures for project management, and strengthen communication and coordination
between OCIO management, project managers, account managers, and contractors.

Agency Response

In its written response dated June 21, 2012, OCIO concurred with the four recommendations in
this report. Excerpts from the response and OIG's position have been incorporated into the
relevant sections of the report. The written response is included in its entirety at the end of the
report.

OIG Position

We accept OCIO's management decision for Recommendation 1. For Recommendations 2, 3,
and 4, OCIO needs to specify actions to be taken and provide an estimated completion date for
implementation.




4
  A terabyte is defined as a unit of storage capacity equal to one trillion bytes. A byte is about one character (e.g., a
letter or a number).
5
  The ASOC security sensor array is a comprehensive and cohesive integrated security solution comprised of a suite
of security tools, which have been deployed at multiple locations across the country within the USDA’s network and
is the foundation for enterprise wide security monitoring, detection, and protection.

2      AUDIT REPORT 88401-0001-12
Background and Objectives

Background
The Clinger-Cohen Act of 1996 required the establishment of a Chief Information Officer (CIO)
for each major Federal agency. The Act requires USDA to maximize the value of IT
acquisitions to improve the efficiency and effectiveness of its programs. To meet the intent of
the law and to provide a Departmental focus for information resources management issues,
USDA established OCIO.6 The CIO serves as the primary advisor to the Secretary on IT issues.
The OCIO website states its “primary responsibility is to supervise and coordinate within USDA
the design, acquisition, maintenance, use, and disposal of IT by USDA agencies, as well as
monitoring the performance of USDA's IT programs and activities.” 7

One of OCIO’s primary responsibilities is to oversee the Department’s IT systems and security
efforts.8 Specifically, this includes:

    ·   Periodic risk assessments that consider internal and external threats;
    ·   Development and implementation of risk-based, cost-effective policies and procedures to
        provide security protections for the Department’s information;
    ·   Training that covers security responsibilities for personnel;
    ·   Periodic management testing and evaluation of the effectiveness of security policies,
        procedures, controls, and techniques;
    ·   Processes for identifying and remediating significant security deficiencies;
    ·   Procedures for detecting, reporting, and responding to security incidents; and
    ·   Annual program reviews by Department officials.

To evaluate IT security needs throughout the Department, OCIO created a 36-month plan and in
May 2009 organized a team, referred to as the Tiger Team, which identified the Department’s
top security issues. The team consisted of 5 of USDA’s 33 agencies and offices.9 The Tiger
Team identified almost 100 issues and a series of 37 solutions for those security issues, which
were intended to be the basis for implemented projects.

In April 2009, OCIO requested a $44 million increase to its baseline of $18 million for security
enhancements within the Department, which it received for FY 2010.10 In FY 2011, OCIO
received $22 million in additional funding, which was $22 million less than it anticipated. In
addition, OCIO received an extra $27 million in FY 2012 above the FY 2009 baseline of



6
  Secretary’s Memorandum 1030-30 (August 8, 1996).
7
  http://www.ocio.usda.gov/index.html.
8
  Public Law 107-347, e-Government Act, Title III FISMA.
9
  The five agencies consisted of OCIO, the Food and Nutrition Service, the Animal and Plant Health Inspection
Service, the Office of the Chief Financial Officer, and the Forest Service—which constitutes a small portion of
USDA’s total 33 agencies and offices.
10
   Public Law 111-81, Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriation Bill, 2010 (June 23, 2009).

                                                                         AUDIT REPORT 88401-0001-12               3
$18 million. These increased funds were intended to improve the Department’s IT security by
conducting network security assessments, procuring and deploying security tools, and
establishing the ASOC to monitor and protect USDA’s systems. As of April 2, 2012, OCIO had
expended $63.4 million on security enhancements. OCIO selected 16 projects to enhance the
Department’s IT security. In FY 2010, OCIO chose to initiate all 16 projects simultaneously,
expecting a continuation of funding in future years. However, in April 2011, Congress
decreased OCIO’s appropriation as part of the continuing resolution.11 This caused projects to
be severely scaled back and project timelines to be extended further into the future.

Objectives
The objective of this audit was to determine how OCIO utilized funding in FYs 2010 and 2011,
primarily focusing on the increase for security enhancements requested by OCIO and the internal
controls implemented to ensure the funds were expended in a manner to mitigate the risk of
waste and mismanagement.




11
     Public Law 112-10, Department of Defense and Full Year Continuing Appropriations Act 2011 (April 15, 2011).

4        AUDIT REPORT 88401-0001-12
Section 1: Effectively Plan, Prioritize, and Manage Projects

Finding 1: OCIO Needs to Effectively Plan, Prioritize, and Manage its
Projects
While OCIO has made progress in addressing the Department’s security needs, OCIO’s efforts
would have been more effective if strategically planned, prioritized, and managed. Specifically,
we found that some of OCIO’s projects did not meet the purposes outlined in the Congressional
request for funding or were not targeted to improve the most critical IT security risks.12
Additionally, some of these projects were not completely implemented, and were not sufficiently
coordinated. This occurred because OCIO did not adequately plan projects and determine how it
would utilize both internal and external resources. Additionally, OCIO did not establish the
internal control procedures for project management necessary to track and monitor expenditures
and project progress. Because these projects were not effectively managed, the Department’s
information systems are still at risk, even after expending $63.4 million of funding increases
received in FY 2010 and 2011.13

According to OCIO, in 2009, USDA networks were under constant attack and were targeted by
an abundance of malicious activity, and USDA had no visibility into its own networks. The only
means for the Department to become aware of these compromises was if the Department of
Homeland Security, law enforcement, or other intelligence agencies informed OCIO of a
problem, which happened frequently. Since that time, OCIO has established ASOC. Prior to
this, the only security organization at the Department-level was primarily focused on policy and
compliance tracking. ASOC now has federal employees with the requisite skills that provide
enterprise services in security engineering, monitoring and analysis, incident handling, and
security integration. Additionally, in FY 2011, ASOC stated that it responded to three times as
many incidents compared to FY 2010, indicating that USDA is evolving to a more mature and
proactive stance regarding security monitoring and incident handling. Within ASOC, the
Department has deployed security management tools to monitor and protect network traffic. Due
to this increase of insight into USDA’s network, ASOC has been able to detect a number of
incidents and block malicious activity as it occurs.

The Department has also implemented the Tivoli Endpoint Manager, an inventory management
system, on over 140,000 endpoint devices, such as desktops, laptops, and servers.14 This has
allowed the Department to gather data and report to the agencies on a number of potential
vulnerabilities in real-time and determine the risk presented by emerging threats. This reporting
effort has resulted in improved ability to manage the numerous USDA endpoints at risk.

While OCIO has made progress in addressing the Department’s IT security weaknesses, there is
room for improvement. In FY 2009, we recommended that OCIO’s efforts to mitigate material

12
   2010 USDA Budget Explanatory Notes for Committee on Appropriations, Office of the Chief Information
Officer, 111st Cong., 2nd sess. (April 2009).
13
   As of April 2, 2012, OCIO had expended $63.4 million for IT security enhancements.
14
   The Tivoli Endpoint Manager project established a Departmentwide inventory management system to report the
status of all USDA devices.

                                                                      AUDIT REPORT 88401-0001-12                5
IT security weaknesses in the Department be prioritized, with defined goals and realistic
timeframes. We also recommended that OCIO accomplish a defined set of critical objectives
prior to proceeding on to the next set of priorities.15 OCIO concurred with these
recommendations. However, when we did further audit work of OCIO’s efforts in FY 2011, we
noted the same issues and once again recommended that USDA undertake a manageable number
of its highest priority projects and show measureable progress towards the milestones for each
active project.16 As of April 2012, we have not achieved management decision on this
recommendation. OCIO has not sufficiently prioritized or managed its projects intended to
reduce critical IT security weaknesses. Specifically, OCIO did not always 1) expend resources
to sufficiently address the most critical IT security weaknesses, 2) fully implement projects, or 3)
efficiently manage resources both collaboratively between projects and within individual
projects. Instead, OCIO initiated 16 projects simultaneously.

        Expenditures Did Not Sufficiently Address Established, Critical IT Security Weaknesses
        When requesting an increase in funding from Congress, OCIO proposed that these funds
        would be used to bolster three IT security areas: Network Security Assessments, Security
        Tools, and a Security Operations Center. For FY 2010, Congress specified that the
        $44 million increase in funding should be used “to improve the Department’s information
        technology security by conducting network security assessments, procuring and
        deploying security tools, and establishing the Agriculture Security Operations Center to
        monitor and protect USDA’s systems.”17 However, we found that when OCIO received
        its funding increase for the proposed projects, it did not use the money exclusively for the
        purposes outlined in its Congressional request or for projects addressing the
        Department’s most critical IT security concerns.

        We found that OCIO did not always use the allocated money as requested to complete the
        most critical IT security projects. For example, in FY 2010, OCIO spent $4.7 million on
        other projects, rather than on network security assessments, as proposed to Congress. As
        a result, though OCIO stated to Congress that it would complete 11 network assessments
        by FY 2010, we found that it only completed 8 by the end of that year.18 While providing
        some benefits, the completed network security assessments, costing $2.7 million, did not
        meet Federal guidelines.19 For example, OCIO’s security assessment methodology did
        not identify examination techniques for some monitoring network and device
        communications, which may have left critical network vulnerabilities unaddressed. The
        original reason for planning and conducting these network assessments was to identify,


15
   U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal Year 2009 Federal Information
Security Management Act Report, Audit Report 50501-0015-FM (October 1, 2009).
16
   U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal Year 2011 Federal Information
Security Management Act Report, Audit Report 50501-0002-12 (November 15, 2011).
17
   Public Law 111-81, Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriation Bill, 2010 (June 23, 2009).
18
   Report to Congress on the Status of Information Technology Security FY 2010 Program Activities through early
February 2010; Subcommittee on Agriculture, Rural Development, Food and Drug Administration, and Related
Agencies (May 17, 2010).
19
   National Institute of Standards and Technology (NIST) Special Publication 800-115, Technical Guide to
Information Security Testing and Assessment (September 2008).

6     AUDIT REPORT 88401-0001-12
         track, and mitigate security weaknesses. In addition, though required by Office of
         Management and Budget (OMB), none of the Department’s agencies created Plans of
         Action and Milestones (POA&Ms) for the vulnerabilities identified by the network
         assessments because OCIO did not enforce compliance. 20

         OCIO expended over $6.7 million in FYs 2010 and 2011 for three projects not proposed
         to Congress (Exhibit A).21 For example, a two-year internship program, which cost
         approximately $2 million, was initiated with these funds. This project is intended to
         develop and sustain a highly skilled IT security and computer technology workforce.
         Expenditures for FY 2010 and 2011 included over $686,000 for development and
         implementation of a networking website and approximately $192,500 in housing costs for
         two summers. While the intern program may be a beneficial step in the long-run, it did
         little to further the more pressing objective of improving USDA’s IT security. Focusing
         resources on this project may have detracted from other, more pressing projects, such as
         conducting network security assessments, that more directly addressed Congress’ and the
         Department’s IT security priorities.

         We found that the projects OCIO initiated did not always align with the priorities laid out
         in OCIO’s own initial planning efforts. Prior to receiving increased funding, OCIO
         developed a 36-month plan and invited USDA agencies to provide input to develop
         project initiatives based on the various needs of the Department. Referred to as the Tiger
         Team, representatives from 5 of USDA’s 33 agencies and offices developed a total of 37
         solutions to IT security issues.22 While this should have been a key step to planning and
         addressing assessed Departmental needs, we found that three of the Tiger Team’s
         highest-priority initiatives—physical security, media sanitization and disposal, and
         network firewalls—were not addressed by the 16 selected projects.23

         Projects Not Fully Implemented

         With multiple, interconnected projects to manage, it is important that OCIO ensure that
         projects are implemented with realistic and manageable timeframes. Without these

20
   OMB Memorandum 04-25, FY 2004 Reporting Instructions for the Federal Information Security Management
Act (August 23, 2004), requires agencies to prepare POA&Ms for all programs and systems where an IT security
weakness has been found. POA&Ms identify tasks needing to be accomplished to assist agencies in assessing,
prioritizing, and monitoring the progress of corrective efforts for security weaknesses found in programs and
systems. A POA&M details resources required to accomplish the elements of the plan, milestones for meeting the
task, and scheduled completion dates for the milestones.
21
   Although we acknowledge that one of these projects, Certification and Accreditation, was initiated to remedy a
previous OIG recommendation, we have included it in this report, because it was not included as a security initiative
by OCIO as a basis for increasing its funding in its request to Congress.
22
   The five agencies consisted of OCIO, the Food and Nutrition Service, the Animal and Plant Health Inspection
Service, the Office of the Chief Financial Officer, and the Forest Service—which constitutes a small portion of
USDA’s total 33 agencies and offices.
23
   The Tiger Team determined the highest priority initiatives by aggregating decision criteria such as mitigating risk,
business impact, and meeting regulatory requirements. Physical security refers to the controls that help protect
computer facilities and resources from espionage, sabotage, damage, and theft. Media sanitization and disposal
refers to the disposal, clearing, purging, and destroying of media when no longer needed. Network firewalls allow
or disallow communication to or from networks based upon rule sets determined by the agency.

                                                                           AUDIT REPORT 88401-0001-12                7
        measures, security enhancements may be outdated by the time projects are completed. In
        December 2010, the U.S. Chief Information Officer explained that to prevent
        implementing outdated technology and solutions, Federal IT programs must be structured
        to deploy working business functionality in release cycles no longer than 12 months and,
        ideally, less than 6 months, with initial deployment to end users no later than 18 months
        after the program begins.24, 25 Additionally, to ensure that IT projects progress as
        planned, the Clinger-Cohen Act of 1996 requires agency management to implement a
        system of milestones for measuring IT project progress.26

        However, we found that OCIO has initiated more projects than it can complete in a
        reasonable timeframe. Of the 16 projects OCIO undertook to further USDA IT security
        efforts, 7 projects were completed. Of these, 3 were pilot projects conducted to evaluate
        potential software options for the Department, none of which were determined to be
        viable. As of February 2012, 9 projects were still in progress for longer than the U.S.
        Chief Information Officer’s recommended 12-month implementation timeframe. OCIO
        did not create milestones for eight projects, and critical projects have not been completed
        because significant resources were redirected elsewhere.

        These critical projects have not been as comprehensive as they were intended to be. For
        example, in FY 2010, OCIO informed Congress that it would utilize $12.3 million to
        establish ASOC, which was to “coordinate continuous 24x7x365 security operations to
        defend USDA information, assets, network and systems.”27 For FYs 2010 and 2011,
        OCIO has expended over $18.7 million towards accomplishing this goal. OCIO
        expended an additional $10.6 million for the security sensor array project, to “employ
        state of the art monitoring, incident response, threat analysis, and forensics
        capabilities.”28

        However, we found that while OCIO has tools in place for monitoring daily data, security
        efforts are not as robust or comprehensive as they should be to support an effective
        24x7x365 security operation. While the security sensor array gathers data for threat
        analysis and forensics capabilities, this information is not fully analyzed, and has resulted
        in security issues not being investigated. Though this stands as an immense and
        important undertaking which OCIO has invested $29.3 million towards accomplishing,
        ASOC has only assigned two individuals to work on data monitoring and analysis and it
        only operates 11 hours a day, 5 days a week. OCIO stated that the resources required to
        fully review, address, and resolve every event that the security sensor array identifies is
        unknown due to the tremendous amount of data generated. We found that because OCIO
        has not designated the necessary number of personnel, OCIO is only able to analyze and

24
   The U.S. Chief Information Officer position was established within the White House’s OMB to provide
leadership and oversight for IT spending throughout the Federal Government.
25
   25 Point Implementation Plan to Reform Federal Information Technology Management (December 9, 2010).
26
   Clinger-Cohen Act (January 1996).
27
   2010 USDA Budget Explanatory Notes for Committee on Appropriations, Office of the Chief Information Officer.
24x7x365 is defined as 24 hours a day, 7 days a week, and 365 days a year.
28
   The ASOC security sensor array is a comprehensive and cohesive integrated security solution comprised of a suite
of security tools, which have been deployed at multiple locations across the country within the USDA’s network and
is the foundation for enterprise-wide security monitoring, detection, and protection.

8     AUDIT REPORT 88401-0001-12
        process approximately 10 security incidents a week. This allows the vast majority of
        incidents to go unanalyzed.

        Additionally, OCIO was not adequately remediating identified weaknesses. First, we
        found during our review that OCIO was not conducting vulnerability scans. 29 OCIO
        stated that it did not have the licensing available to accomplish scanning. As of January
        2012, ASOC has been performing vulnerability scans as recommended by OIG and
        dictated by USDA policy. Second, OIG identified 77 of 333 software packages on the
        security sensor array that had not received recommended security patches.30 These
        patches safeguard against known security threats and are a necessary step for IT security.
        Finally, as of February 2012, we found there were 1,309 critical and high unmitigated
        vulnerabilities, of which 624 were over 30 days old and POA&Ms had not been created.31

        We also found that projects were not as far along as they should have been. For example,
        several projects have been partially implemented because of a sudden reduction in
        contractor personnel. When OCIO received a total of $40 million for FY 2011,
        $22 million less than what it anticipated, OCIO decided to reduce the number of
        contractors working on key projects from 48 to 4. As a result of this abrupt,
        unanticipated transition, progress on several projects was halted or delayed. For
        example, two contractor-run projects, with a total cost of $4.7 million, were intended to
        create and implement required risk management policy and procedures to ensure agency
        compliance with Federal and Departmental regulations. 32 However, OCIO was not
        efficiently monitoring the contractors’ progress. Consequently, when budgetary cuts
        came, and the contracts were terminated, OCIO was not aware of the contractors’
        progress and therefore was unable to fully utilize the work performed by the contractors.
        This set OCIO back significantly, and OCIO was unable to meet Federal guidelines.
        Additionally, when OCIO released the contractor assigned to a $2.9 million project,
        OCIO found that it did not have access to the administrator functions—which had been
        maintained by the contractor. Although some functions were available, without access to
        the administrator accounts OCIO was unable to provide critical Department-level
        information.




29
   Vulnerability scanning is the process of searching the network and its devices, including servers, for known
vulnerabilities. It is used to identify vulnerabilities that need to be remediated and also to verify that required
patches have been applied. Patching is the process of applying software updates to remediate and prevent known
vulnerabilities. Software vendors release patches periodically to fix known flaws and to upgrade the software.
30
   Vulnerability data were obtained for 3 of the 11 security sensor sites, which included the primary, backup, and
monitoring sites.
31
   The vulnerability scanning software ranks vulnerabilities on a severity scale of 1-10. The scanning software
considers vulnerabilities ranked 4-10 as critical or high. The Department Plan of Action and Milestones
Management Standard Operating Procedure (June 29, 2011) requires that POA&Ms must identify the source of the
vulnerability and be created within 30 days of vulnerability identification if not immediately resolved.
32
   Guide for Applying the Risk Management Framework to Federal Information Systems: A Security Life Cycle
Approach, NIST Special Publication 800-37 (February 2010).

                                                                         AUDIT REPORT 88401-0001-12              9
         Project and Resources Were Not Efficiently Managed

         With fluctuating budgets on multiple, high-priority projects, it is crucial that project
         expenditures be carefully managed both collaboratively between projects and within
         individual projects. Without careful management of resources and expenditures, OCIO
         cannot ensure that funds are expended as originally intended for uses that would best
         accomplish project goals. The Government Accountability Office (GAO) states that
         effective stewardship of Federal funds depends upon the establishment of certain internal
         controls meant to ensure that those funds are used in the most efficient manner to
         maximize the impact of the funding received.33 Likewise, The USDA Management
         Control Manual states that management controls are used to reasonably ensure that
         projects and resources are protected from waste and mismanagement.34

         However, we found that OCIO had not managed resources efficiently for some of its key
         IT security projects. Specifically:

         ·   In FYs 2010 and 2011, OCIO spent at least $1.8 million to acquire four tools for the
             security sensor array project—which are not currently used—and subsequently spent
             additional annual maintenance costs of approximately $1.2 million. In addition,
             OCIO determined that one of these tools, costing approximately $425,000, could not
             handle the amount of data that USDA’s network generates. OCIO has maintained
             this tool at a cost of approximately $81,000 annually but has not been able to utilize
             it. As of December 2011, OCIO stated that it was determining the feasibility of using
             the tool elsewhere.
         ·   In FY 2010, OCIO spent $235,000 to research possible solutions for a project
             intended to prevent data leakage outside of USDA networks.35 The project was
             subsequently cancelled because its goals were redundant with another ongoing
             project, the security sensor array.

         With proper coordination within OCIO and improved communication between project
         managers, these unnecessary costs could have been avoided. Careful planning and
         coordination of expenditures is necessary to ensure projects and project costs are
         optimized to accomplish IT security goals and reduce wasteful spending.

         In other instances, OCIO did not appropriately track resources or expenditures. Guidance
         from the Office of the Chief Financial Officer states that all direct costs, such as salary
         and other benefits for employees working directly on projects and all goods and services
         must be included in the full cost of projects.36 However, we found that 11 of 16 projects
         did not have Federal salaries and benefits charged to them. One project charter
         specifically instructed Federal employees to track their hours but not to charge them to
         the project, even though Federal employees were working directly on the project, as
         indicated by bonuses and travel expenses charged to this project. For another project,

33
   GAO, Standards for Internal Control in the Federal Government (November 1999).
34
   USDA Management Control Manual, Department Manual 1110-002 (November 29, 2002).
35
   Data leakage refers to the unauthorized transfer of information from a computer or datacenter to the outside world.
36
   Office of Chief Financial Officer, Agriculture Financial Standards Manual (May 2004).

10      AUDIT REPORT 88401-0001-12
        OCIO explained that full contract costs were not included in the project in order “to
        maximize the ASOC security dollars.”

        Without providing supporting documentation for accounting transactions, OCIO cannot
        adequately oversee and manage its projects. OCIO assigned this responsibility to the
        control account managers (CAMs), who were required to track, summarize, and report all
        obligations and expenditures. We found that OCIO lacked oversight on several of its
        projects. For example, expenditures for two projects exceeded obligations by
        approximately $1.2 million. The two project CAMs could not adequately justify the
        expenditure overages with supporting documentation. One of these projects also incurred
        interest charges due to a late payment.

        We also found that OCIO was not taking adequate steps to document and account for its
        projects in order to ensure that it was providing adequate oversight. For instance, OCIO
        could not provide OIG with 36 contracts that would explain specific contractor work,
        deliverables, and costs. 37 When we asked how many project contracts there were in
        total, OCIO was not able to provide a comprehensive list of all project contracts.

These issues occurred because OCIO had not established internal control procedures, such as
monitoring and oversight, for project management, and did not adequately plan its projects or
how it would utilize resources. When we looked at OCIO’s internal controls for the 16 projects,
we noticed an overall lack of controls necessary to ensure timelines were met, and to ensure
funds and supporting documentation were appropriately tracked. Specifically, OCIO did not:

        · provide an organizational structure to facilitate project oversight and timelines;
        · have an overall project plan that considered risk factors that could impact completion of
          the security projects—such as budget reductions;
        · implement appropriate policies, procedures, techniques, and control mechanisms to
          ensure sufficient documentation and expense management; or
        · put a system in place to identify and communicate information to decision makers, such
          as regular project progress updates for on-going contracted work.

We also found that OCIO was not properly coordinating between projects in order to prevent
duplicate project objectives. OCIO officials, CAMs, and contractors did not effectively
communicate within projects in order to accurately track and monitor project progress, costs, and
status.

When we spoke to OCIO regarding the number of projects initiated, OCIO felt it could not have
scaled down the number of simultaneous projects because IT systems are complex, and require
many components to come together. While we acknowledge that IT projects—like many
projects—are complex, initiating all plans simultaneously led to a thin distribution of resources
and strained oversight capabilities. While these 16 projects may be beneficial to the
Department’s overall IT security efforts, it would have been more effective to implement a

37
  We use the term “contracts” to refer to both agreements made with non-Federal vendors and with other Federal
agencies.

                                                                     AUDIT REPORT 88401-0001-12              11
manageable number of projects, allowing for complete implementation, monitoring, and
planning—rather than a thinly distributed effort across multiple fronts.

OCIO also explained that many projects were delayed due to administrative challenges, such as
the migration of accounting records to a new financial system. Although we acknowledge that
migrating to a new accounting system poses a significant challenge, OCIO is responsible for
being able to account for money spent, and the new financial system is USDA’s required system
of record.

Additionally, OCIO stated that it did not receive funding until the second quarter of FY 2010,
which resulted in officials needing to spend the funds in a shorter timeframe than anticipated.
However, we determined that funding was actually apportioned in November 2009.38 We also
found the Tiger Team planning meeting took place in May 2009, prior to OCIO receiving the
appropriation. With adequate planning, OCIO should have determined the best use of funds and
how to monitor expenditures, even with a shortened timeframe.

We acknowledge that OCIO has made progress in several key areas, including system security
documentation; improving its identity and access management program; and completing a
deployment of a suite of network monitoring and detection tools, which should further enhance
the security of its networks. While OCIO has made progress in addressing the Department’s IT
security needs, as stated in three previous audits, OCIO’s efforts could have had more impact if
projects and resources had been better planned and effectively managed.39 Because they were
not, the Department is still at significant risk, even after the additional funding. Once USDA
deploys adequate resources to properly configure and completely monitor these tools, the
Department’s security posture should greatly improve.

Recommendation 1
Document the prioritization of projects Departmentwide to ensure the most critical projects take
a higher precedence than other, non-critical projects.

Agency Response

OCIO concurs with this recommendation. On May 31, 2012, OCIO prioritized projects with the
establishment of Continuous Monitoring as its highest priority project for 2013. The second
highest priority project is the identification and development of program metrics and key



38
   According to OMB A-11.120.1, Preparation, Submission, and Execution of the Budget (August 2011), an
apportionment identifies the amounts available for obligation and expenditure. It specifies and limits the obligations
that may be incurred and expenditures made for specific time periods, programs, activities, projects, objects, or any
combination thereof.
39
   U.S. Department of Agriculture, Office of the Chief Information Officer, Federal Information Security
Management Act Report, FYs 2009-2011, 50501-0015-FM (October 2009), 50501-0002-IT (November 2010), and
50501-0002-12 (November 2011).


12      AUDIT REPORT 88401-0001-12
performance indicators. The third priority for OCIO in the coming year is the introduction and
effective engagement of the agency security and operational personnel.

OIG Position

We concur with the agency response for this recommendation and have reached management
decision.

Recommendation 2
Designate sufficient resources to adequately configure and monitor the security sensor array in
order to defend USDA’s information system against external and internal threats.

Agency Response

OCIO stated it will provide planned accomplishments and timelines to designate a group of
security sensor array experts who will develop and provide instructions and hands-on training to
agency IT personnel, and bring agency subject matter experts in to help OCIO better understand
agency data and activities within 120 days of the date of this final report.

OIG Position

While OIG agrees this course of action will help to address this recommendation, in order to
reach management decision, OCIO needs to finalize the plans and provide estimated completion
dates for implementing these planned actions.

Recommendation 3
Develop detailed internal control procedures for project management that include the
requirement to specify and document project milestones, accurately allocate and track project
costs, develop project timelines, and establish project-specific roles and responsibilities.

Agency Response

OCIO implemented internal control procedures for managing initiatives by implementing a
methodology for managing projects. As of FY 2010, OCIO required project managers to
engage with the Portfolio and Project Management Branch of International Technology Services.
OCIO will require all new projects to conform to the single artificial risk matrix model. These
efforts have been supplemented with the ASOC contracted Project Management Office team to
develop required project documentation that includes tailored project charters; defined roles and
responsibilities, project plans, work breakdown structures, and project schedules.




                                                            AUDIT REPORT 88401-0001-12          13
OIG Position
While OIG concurs with OCIO’s proposed actions, in order to reach management decision,
OCIO needs to formalize this requirement in a policy and procedure and provide estimated
release dates.

Recommendation 4
Strengthen communication and coordination between OCIO management, project managers
(CAMs), and contractors, allowing the different parties to work collaboratively and effectively

Agency Response

OCIO has worked in collaboration with OCIO Program Management Office to manage the
security project portfolio. At a minimum, all project managers communicate project status,
through project team reports to the CAM; and the CAM, in turn, reports to OCIO leadership and
its project management branch.

OIG Position

In order to reach management decision, OCIO needs to specify actions taken or that it plans to
take and provide actual or estimated completion dates for implementation.




14     AUDIT REPORT 88401-0001-12
Scope and Methodology
Our review analyzed the funding that OCIO received in FYs 2010 and 2011, primarily focusing
on the increased funding allocation for security enhancements. We compared the controls that
OCIO had in place to plan, spend, and monitor this funding to GAO’s Standards for Internal
Control in the Federal Government.

Fieldwork for this audit was performed from March 2011 through January 2012 in
Washington, D.C.; Kansas City, Missouri; and Denver and Fort Collins, Colorado.

To accomplish our audit objective, we performed the following procedures:

     ·   Reviewed Office of Budget and Program Analysis (OBPA) and Congressional
         documentation regarding the increased funding allocation for the security
         enhancements.40
     ·   Reviewed the methods and controls that OCIO put in place for implementing and
         monitoring the security enhancement projects as per budgetary requirements (Public Law
         111-80), OMB, OBPA, and the Federal Acquisition Regulation (FAR).
     ·   Reviewed financial transactions recorded in OCIO's accounting system associated with
         the FY 2010 and 2011 OCIO appropriations.41
     ·   Selected a judgmental sample of contracts and transactions for analysis. The judgmental
         sample was based upon the number and availability of contracts within each project.
     ·   Tested a judgmental sample of contracts using FAR guidelines.42
     ·   Reviewed and analyzed financial transaction documentation support including contracts,
         statements of work, reimbursable agreements, and invoices.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




40
   Documents included the Appropriations Acts of 2010, 2011, and 2012; House of Representatives Explanatory
Notes, and documents provided by OCIO to the House Appropriation Subcommittee staff.
41
   We relied on information from the Financial Management Modernization Initiative system. This is the USDA
accounting system of record and is reviewed by OIG in Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2010 and 2009, 50401-70-FM (November 2010) and Department of Agriculture’s
Consolidated Financial Statements for Fiscal Years 2011 and 2010, 50401-0001-11 (November 2011).
42
   FAR Part 6.1-6.3, Fair and Open Competition; and Part 15.406-3, Documenting the Negotiation.

                                                                    AUDIT REPORT 88401-0001-12                15
Abbreviations
ASOC.......................... Agriculture Security Operations Center
CAMs.......................... Control Account Managers
CIO.............................. Chief Information Officer
FAR............................. Federal Acquisition Regulation
FY ............................... Fiscal Year
GAO............................ Government Accountability Office
IT................................. Information Technology
NIST............................ National Institute of Standards and Technology
OBPA.......................... Office of Budget and Program Analysis
OCIO........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
POA&Ms .................... Plans of Action and Milestones
USDA.......................... Department of Agriculture




16      AUDIT REPORT 88401-0001-12
Exhibit A: OCIO Projects Not in Budgetary Request to Congress
  Project                                         FY 2010 & 2011 Expenditures
  IT Intern Program                                       $2,013,396
  Re-engineered Certification and Accreditation           $2,458,360
  Governance, Risk and Compliance                         $2,249,998
  Total                                                   $6,721,754




                                                   AUDIT REPORT 88401-0001-12   17
18   AUDIT REPORT 88401-0001-12
Agency’s Response




                    USDA’S
   OFFICE OF THE CHIEF INFORMATION
               OFFICER’S
         RESPONSE TO AUDIT REPORT




                             AUDIT REPORT 88401-0001-12   19
United States
Department of
Agriculture
                                                                                                 June 21, 2012
Office of the Chief
Information Officer
                      TO:                Gil H. Harden
1400 Independence                        Assistant Inspector General for Audit
Avenue S.W.

Washington, DC        FROM:              Cheryl. L. Cook /s/
20250                                    Acting, Chief Information Officer

                      SUBJECT:           Request for Management Decision Concurrence on Recommendations 1-4
                                         Office of Inspector General Audit # 88401-0001-12
                                         “Audit of the Office of the Chief Information Officer’s FYs 2010 and 2011
                                         Funding Received for Security Enhancements”

                      The Office of the Chief Information Officer (OCIO) is requesting Management Decision
                      concurrence on recommendation(s) 1-4 of the subject audit. OCIO concurs with all 4
                      recommendations. However, it is important to note that over the past year, OCIO has put in
                      place processes and procedures as part of the ongoing maturity of the Agriculture Security
                      Operations Center program that address the basis for the recommendations. These processes
                      and procedures may not have been fully implemented at the outset of the audit.

                      Recommendation 1 – Document the prioritization of projects Department-wide to ensure the
                      most critical projects have a higher precedence than other, non-critical projects.

                      OCIO concurs with this recommendation. OCIO/ Agriculture Security Operations Center
                      (ASOC) has established rigorous procedures to focus on critical security concerns. ASOC
                      will continue to work with OIG to ensure that the documentation of priorities is in an
                      acceptable format. Securing our nation against cyber attacks has become one of the nation's
                      highest priorities. As the organization charged with the responsibility for ensuring the
                      Department’s ability to support the national food supply chain, the agriculture economy,
                      research and development, and an active loan portfolio of over $120 billion, we understand
                      the challenges of securing this complex environment; as such, this urgent and compelling
                      workload demands that we successfully manage multiple projects, risks, and emerging
                      requirements on a daily basis. In response to this recommendation, on May 31, 2012, ASOC
                      takes the establishment of Continuous Monitoring as its highest priority project for 2013. The
                      biggest single issue facing ASOC, and USDA Enterprise Security as a whole, is the challenge
                      of transforming security awareness through the automation of the risk and continuous
                      assessment of the enterprise. Frequently referred to as Continuous Monitoring (CM), it is the
                      challenge of taking the technology and processes that ASOC has built over the last two years
                      (including BigFix™, the Security Sensor Array, Opnet™, and the ASOC monitoring,
                      analysis, and forensics programs), weaving in the data and activities of OCIO and agency
                      operational IT programs, and producing timely and actionable intelligence on the state of the
                      enterprise and the prioritized issues requiring attention. Critical to determining the success of
                      this effort will be the early agreement with OIG on how a nascent CM program will be
                      measured and evaluated. Emerging guidance from the Office of Management and Budget, the
                      Department of Homeland Security, and the National Institute of Standards and Technologies
                      are all clear that there is no boilerplate approach to CM; each agency must determine what
                      controls and processes can be adapted, and how that adaption can best be assessed. The
                      ASOC efforts toward CM will be focused on continuous vulnerability assessment, which
                      should be understood to be an activity set different from CM for continuous authorization,

                      AN EQUAL OPPORTUNITY EMPLOYER
which is targeted to replace manual Certification and Accreditation activities. The planned
ASOC activities are foundational for much of the Continuous Authorization model as it is
currently being developed in the federal community. ASOC will complete the rollout of the
Enterprise Vulnerability Scanner as a critical component of the continuous monitoring model.
Within 120 days of this final report, ASOC will provide planned accomplishments and
timelines regarding continuous monitoring.

 A second high priority project for ASOC, identified on May 31, 2012, in conjunction with the
CM activity, is the identification and development of program metrics and key performance
indicators. Effective program management requires both the bottom-up (from the CM
functions) and a top-down approach. The latter will be achieved through a cross-OCIO
management effort that will identify and measure critical interdependencies, and the portion
of those elements that can be met from ASOC data resources. We anticipate that developing
useful metrics and KPI’s will be an evolutionary process. ASOC recognizes the need to
continuously improve them, based upon OIG and the Agency feedback, in order to shift focus
in response to the evolving nature of cyber security threats. Within 120 days of this final
report, ASOC will provide planned accomplishments and timelines regarding program metrics
and key performance indicators.

The third priority for ASOC in the coming year (identified on May 31, 2012) is the
introduction and effective engagement of the agency security and operational personnel.
Incident Response is hampered when the parties engaged do not understand each other’s
methods, or the underlying data upon which the incident is predicated. Further, ASOC is
hampered by the reduction in resources available to review and analyze the data being made
available by the Security Sensor Array (SSA). By training agency personnel on ASOC tools
and methods, and then extending connectivity to the SSA in a secure manner to those same
agency personnel, ASOC can double or treble the number of simultaneous analysis sessions
being performed. The agency personnel will also bring their subject matter expertise
regarding agency data and activities to the ASOC, allowing the SSA tools to be further
enhanced and tuned for more accurate monitoring. In addition, ASOC will continue leverage
its investment in the SSA by developing and publishing agency-specific status reports in order
to help agency CIOs and system owners improve their security posture. Within 120 days of
this final report, ASOC will provide planned accomplishments and timelines regarding the
introduction and effective engagement of agency security and operational personnel.

Recommendation 2 – Designate sufficient resources to adequately configure and monitor the
security sensor array in order to defend USDA’s information system against external and
internal threats.

OCIO concurs with this recommendation. The architecture design of the security sensor array
provides a means for granular control of ASOC infrastructure at the point of presence (POP);
and includes the ability to work closer to infected workstations as well as detect lateral POP
attack/infection. Information Security subject matter experts across the enterprise are being
trained to make use of the enhanced awareness provided by the security sensor array.

With the implementation of the Security Stack Array (SSA) in April 2011, OCIO has been
able to shift the USDA posture in security cyber threat operations from a reactive to proactive
state. The array has greatly reduced the amount of data exfiltrated (stolen) from USDA. We
have been and will continue to fine tune the tool’s capabilities, reduce false positives, and
train the supporting technical staff on the administration and usage of all the tool capabilities
so that the tools can be used in a fully functional operational environment. Additionally,
OCIO quickly recognized that the volume of potential security events that the Security Stack
Array was identifying on a daily basis was presenting an enormous challenge to manage and

AN EQUAL OPPORTUNITY EMPLOYER
research in a timely manner. To address this, OCIO initiated effort to develop and tune
automated security rules and conditions to handle the volume of data. This effort was
temporarily impacted when the budget was reduced in April 2011.

To partially meet the budget challenge, we have realigned staffing to better utilize our
resources, improve general IT hygiene, and concentrate on High Value Targets (HVT)
(personnel, systems and endpoints). We are also developing a cadre of SSA expertise by
providing instruction and hands on training to agency IT personnel, bringing agency subject
matter experts in to help OCIO better understand agency data and activities. The goal is to
continue to fine-tune the SSA through implementation of security rules and conditions to
proactively identify true attacks and compromises, and greatly reduce the false positives.
Within 120 days of this final report, ASOC will provide planned accomplishments and
timelines regarding this effort.

Recommendation 3 – Develop detailed internal control procedures for project management
that include the requirement to specify and document project milestones, accurately allocate
and track project costs, develop project timelines, and establish project-specific roles and
responsibilities.

OCIO concurs with this recommendation. OCIO has implemented internal control procedures
for managing ASOC Initiatives. The Portfolio and Project Management Branch (PPMB) of
International Technology Services (ITS) was engaged at the onset of fiscal year 2010 to
implement a consistent methodology for managing projects. The ITS PPMB Portfolio and
Project Management Procedural Guide established management policies, procedures, and
practices governing the origination, initiation, planning, implementation and closeout of the
portfolio management framework and the ITS 5D Solution Life Cycle (Discover, Define,
Design, Develop, and Deliver) stages of the Project Management Framework.

ASOC has established an internal management structure for project control adhering to the
methodologies established by the PPMB framework and following principles based upon the
PMI Project Management Body of Knowledge (PMBOK). Roles and responsibilities are
defined in each project charter and identify each respective project stakeholder to their project
function. Control Account Managers (CAMs), who are also OCIO program leaders, have been
assigned delegated obligation authority to manage one or more control accounts, and are
given the autonomy to assign the appropriate project resource levels to fulfill the expected
outcomes. CAMs identify risks throughout each project’s lifecycle and identify strategies to
minimize the impact of risk occurrence. OCIO/ASOC also installed a team of certified
Project Managers to serve as liaison to the CAMs, and each has been charged with ensuring
that the internal project framework is implemented and followed. Project performance is
measured against the project baseline in terms of schedule, cost, scope and quality and project
status information is communicated during OCIO bi-weekly meetings where OCIO leadership
is able to make key project decisions and recommendations. A change management process
has been instituted to establish an orderly and effective procedure for tracking the submission,
coordination, review, evaluation, and approval for release of all changes to the project’s
baselines. OCIO has also implemented several oversight mechanisms for detecting individual
project risk. The overall project objectives have been defined in the project charters, and are
also monitored via the bi-weekly CAMs meetings, and are supplemented with weekly senior
executive reporting. Risks for each project are identified and addressed during the bi-weekly
CAMS and/or senior executive reporting.

In addition, a project control environment has been provided by ITS support services which
included cost accounting models, templates, common reporting forum (e.g., SharePoint).
These efforts have been supplemented with the ASOC contracted PMO team to develop

AN EQUAL OPPORTUNITY EMPLOYER
required project documentation that includes tailored project charters; defined roles and
responsibilities, project plans, work breakdown structure (WBS), and project schedules.
OCIO/ASOC have implemented a cost control governance model based upon the industry
standard Project Managers Body of Knowledge (PMBOK), and with the assistance of
OCIO/ITS, have developed and deployed one of the most sophisticated Cost Models ever
attempted in FMMI. Continuous status and financial monitoring are an integral part of the
ASOC activities, and have included ensuring appropriate closeout activities after the
unexpected funding cut.

Because projects are at various stages of their respective life cycle, ASOC, in the interest of
efficiency, has not required all projects to restart and re-develop all project artifacts into a
single artificial risk matrix model. However, individual project risk was managed as part of
overall governance, and, going forward, all new projects will conform to the recommended
single artificial risk matrix model.

Recommendation 4 – Strengthen communication and coordination between OCIO
management, project managers (CAM), and contractors, allowing the different parties to work
collaboratively and effectively.

OCIO concurs with this recommendation. ASOC has worked in collaboration with the Office
of Chief Information Officer (OCIO) Program Management Office (PgMO) to manage the
security project portfolio. ASOC directs the management of all security initiatives and
projects, determines priorities, and governs the strategic decision-making. OCIO PgMO
directs the business practices that bring the world of projects into tight integration with USDA
enterprise business operations. This combined leadership oversight affirms cross-agency
and/or interoffice coordination of work efforts. Major components of the Project Portfolio
Management include:

     ·    Management oversight and governance
     ·    Budget management
     ·    Acquisition management
     ·    Risk management
     ·    Stakeholder management
     ·    Standards and best practices
     ·    Strategic goals and objectives
     ·    Performance criteria (metrics), and
     ·    Enterprise reporting

At a minimum, all projects communicate project status, whereby each project team reports to
the CAM; and the CAM, in turn, reports to ASOC leadership and OCIO PgMO. Two typical
forums for communicating status are through bi-weekly OCIO project status meetings and
ASOC project roadmap status reports. Each forum provides an opportunity for knowledge
sharing and coordination amongst CAMs, ASOC leadership, and OCIO PgMO.

OCIO always strives to provide multiple conduits for communication opportunities between
OCIO Federal staff, contractors and assigned project managers. OCIO also meets weekly with
the project leads for all contracts. Within 120 days of this final report, ASOC will provide
planned accomplishments and timelines regarding this effort.

We shall continue to keep you posted of our progress on these recommendations.

If additional information is needed, please contact Denice A. Lotson, OCIO Audit Liaison, on
telephone number (202) 720-9384.
AN EQUAL OPPORTUNITY EMPLOYER
Attachments

cc: Lennetta Elias, Program Analyst, OCFO (w/attachment)
    Denice A. Lotson, Management Analyst (w/attachment)




AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Office of the Chief Information Officer
 Attn: Agency Liaison Officer (3)

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer
 Attn: Director, Planning and Accountability Division (1)
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
